SMITH BALUCH LLP

700 Pennsylvania Ave. SE
Suite 2060
Washington DC 20003
Andrew S. Baluch
Tel: +1.202.880.2397

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Collabo Innovations, Inc. v. Sony Corporation,
S.Ct. No. 19-601

Dear Mr. Harris:
I am counsel of record for respondent Sony Corporation in the above captioned case, which is
currently pending before this Court on a petition for a writ of certiorari filed on November 4, 2019,
and placed on the docket on November 7, 2019. The government requested and was granted a 30day extension of time to file a response to the petition, up to and including January 8, 2020, for all
respondents.
In accordance with Rule 30.4 of the rules of this Court, I respectfully request a further 30-day
extension to file a response, up to and including February 7, 2020, for all respondents.
This extension is requested due to the heavy press of other matters, as well as the upcoming holidays
in each of the two weeks before the current deadline. I have conferred with counsel for the petitioner
and the government, and they have stated that neither the petitioner nor the government would
oppose this request for a further 30-day extension.
Sincerely,

Andrew S. Baluch

cc: See Attached Service List

BOSTON

SILICON VALLEY

WASHINGTON, DC

19-0601
COLLABO INNOVATIONS, INC.
SONY CORPORATION
PATRICK J. CONROY
BRAGALONE CONROY PC
2200 ROSS AVEUE
SUITE 4500W
DALLAS, TX 75201
PCONROY@BCPC-LAW.COM
NOEL J. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
SUPREMECTBRIEFS@USDOJ.GOV

